                                                    ."." SECu
                                                   O(j~r.,
                                                   W/'US~~
                                                   ,     1II1II1
                                                              ~!
                                                       'VlS~1'

                                       SOCIAL          SECURITY
                                        Office of the Inspector         General
MEMORANDUM

Date:   September    18,   2001                                                            ReferTo:

To:     Linda S. McMahon
        Regional Commissioner
         for San Francisco

From:
        Inspector General


Subject:Financial-Related  Audit of Outreach,    Inc. -A    Fee-for-Service            Representative   Payee
        for the Social Security Administration    (A-09-00-10068)



        The attached final report presents the results of our audit. Our objectives were to
        determine whether Outreach, Inc., (1) had effective safeguards over the receipt and
        disbursement   of Social Security benefits and (2) ensured Social Security benefits were
        used and accounted for in accordance with the Social Security Administration's     policies
        and procedures.

        Please comment       within 60 days from the date of this memorandum     on corrective action
        taken or planned     on each recommendation.     If you wish to discuss the final report,
        please call me or    have your staff contact Steven L. Schaeffer, Assistant Inspector
        General for Audit,    at (410) 965-9700.
                                                                    /

                                                            //                    td .01
                                                                                       ,(--./-
                                                           ;,!! ?t:~~-­                          --

                                                       v           JameSG. Huse,Jr.

        Attachment
           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION



   FINANCIAL-RELATED AUDIT OF
OUTREACH, INC. — A FEE-FOR-SERVICE
  REPRESENTATIVE PAYEE FOR THE
 SOCIAL SECURITY ADMINISTRATION


   September 2001   A-09-00-10068




 AUDIT REPORT

                                      Mission

We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration  officials, the Congress, and the public.

                                     Authority

The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  0   Conduct and supervise independent and objective audits and

      investigations relating to agency programs and operations.

  o   Promote economy, effectiveness, and efficiency within the agency.

  0   Prevent and detect fraud, waste, and abuse in agency programs and

      operations.

  0   Review and make recommendations        regarding existing and proposed

      legislation and regulations relating to agency programs and operations.

  0   Keep the agency head and the Congress fully and currently informed of

      problems in agency programs and operations.


  To ensure objectivity,   the IG Act empowers   the IG with:

  o   Independence to determine what reviews to perform.
  0   Access to all information necessary for the reviews.
  0   Authority to publish findings and recommendations    based on the reviews.

                                       Vision

By conducting independent and objective audits, investigations,  and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                 Executive Summary

OBJECTIVE

The objectives of the audit were to determine whether Outreach, Inc., (Outreach)
(1) had effective safeguards over the receipt and disbursement of Social Security
benefits and (2) ensured Social Security benefits were used and accounted for in
accordance with the Social Security Administration’s (SSA) policies and procedures.

BACKGROUND

Some individuals cannot manage or direct the management of their finances because
of their age or mental and/or physical impairments. Congress granted SSA the
authority to appoint representative payees (Rep Payee) to receive and manage benefit
payments on behalf of these individuals. A Rep Payee may be an individual or an
organization. SSA selects Rep Payees for Old-Age, Survivors and Disability Insurance
(OASDI) beneficiaries or Supplemental Security Income (SSI) recipients when
representative payments would serve the individual’s interests.

Rep Payees are responsible for using benefits in the individual’s best interests. Their
duties include (1) using benefits to meet the individual’s current and foreseeable needs;
(2) conserving and investing benefits not needed to meet the individual's current
needs; (3) maintaining accounting records of how the benefits are received and used;
(4) reporting events to SSA that may affect the individual's entitlement or benefit
payment amount; (5) reporting any changes in circumstances that would affect their
performance as a Rep Payee; and (6) providing SSA an annual Representative Payee
Report (RPR) accounting for how benefits were spent and invested.

RESULTS OF REVIEW

Our audit disclosed that Outreach generally (1) had effective safeguards over the
receipt and disbursement of Social Security benefits and (2) ensured Social Security
benefits were used and accounted for in accordance with SSA’s policies and
procedures. However, we could not determine whether the Rep Payee properly
reported to SSA how benefits were used because SSA could not locate most of the
RPRs we requested (see Other Matters section of this report). In addition, we identified
a number of areas where Outreach could improve its performance as a Rep Payee (see
Appendix A for a summary of monetary results). Specifically, we found the following.

•	 Outreach held $632,894 in conserved funds that were uninsured, and $665,062 was
   in a noninterest-bearing account.

•	 Outreach did not return $53,052 in conserved funds timely for 28 individuals who
   were no longer in its care.



Financial-Related Audit of Outreach, Inc. – A Fee-for-Service Rep Payee for SSA (A-09-00-10068)   i
•	 Outreach did not report to SSA that 24 recipients had conserved funds in excess of
   the $2,000 SSI resource limit, resulting in overpayments totaling $34,968.

•	 Outreach received incorrect payments totaling $10,320 after the deaths of
   three individuals.

•	 Outreach commingled burial and nonburial funds for 38 SSI recipients and did not
   report the use of burial funds for nonburial purposes for 15 recipients. This resulted
   in three recipients being subject to penalties totaling $3,500.

•	 Outreach issued payments in excess of conserved funds for 87 individuals, resulting
   in a deficit of $1,423 as of August 31, 2000.

•	 Outreach charged excessive Rep Payee fees totaling $790 for 8 of the
   50 individuals in our sample.

•	 SSA recorded incorrect information in its Representative Payee System (RPS) for
   Outreach, including the number of entries, the type of Rep Payee, and the number
   of individuals in its care.

CONCLUSIONS AND RECOMMENDATIONS

Generally, we found that Outreach met its responsibilities as Rep Payee for individuals
receiving OASDI and SSI payments. Nevertheless, Outreach needs to strengthen its
controls and procedures to reduce the potential for erroneous payments and loss of
beneficiary funds. We recommend that SSA:

1. 	 Direct Outreach to amend the title of its checking account to obtain Federal
     Deposit Insurance Corporation coverage of $100,000 for each individual.

2. 	 Direct Outreach to take action to ensure (1) any individuals with conserved funds in
     excess of $100,000 are fully protected against loss and (2) individuals earn interest
     on their conserved funds in accordance with SSA policy.

3. 	 Direct Outreach to return conserved funds to the affected beneficiary, SSA or the
     new Rep Payee for individuals no longer in its care.

4. 	 Direct Outreach to establish controls to determine when individuals no longer in its
     care have conserved funds and ensure these funds are returned in a timely
     manner.

5. 	 Direct Outreach to return SSI payments for recipients who were ineligible because
     of excess resources.




Financial-Related Audit of Outreach, Inc. – A Fee-for-Service Rep Payee for SSA (A-09-00-10068) ii
6. 	 Direct Outreach to develop procedures for identifying SSI recipients with excess
     resources and reporting them to SSA.

7. 	 Direct Outreach to return incorrect payments received on behalf of deceased
     individuals.

8. 	 Direct Outreach to develop procedures for identifying erroneous payments to
     deceased individuals and returning these funds in a timely manner.

9. 	 Direct Outreach to obtain a separate bank account for SSI recipients with burial
     funds and report withdrawals from these funds to the Agency. Also, assess
     penalties for withdrawal of burial funds used for other purposes.

10. 	 Direct Outreach to reimburse individuals with negative balances for conserved
      funds and establish controls to ensure payments to individuals do not exceed their
      conserved fund balances.

11. 	 Direct Outreach to reimburse individuals for excessive Rep Payee fees and provide
      guidance to Outreach on the proper collection of fees for payee services.

12. 	 Update RPS to consolidate the multiple entries for Outreach and include all
      individuals for whom Outreach was selected as Rep Payee.

AGENCY COMMENTS

In its response, SSA agreed with all of our recommendations. (See Appendix C for
SSA’s comments.)




Financial-Related Audit of Outreach, Inc. – A Fee-for-Service Rep Payee for SSA (A-09-00-10068) iii
                                                                         Table of Contents

                                                                                                              Page


INTRODUCTION .................................................................................................... 1


RESULTS OF REVIEW.......................................................................................... 5


    Funds Were Held in Underinsured, Noninterest-Bearing Accounts .................. 5


    Conserved Funds Were Not Returned Timely .................................................. 7


    Excess Resources Resulted in SSI Overpayments .......................................... 7


    Payments Were Received After Death of Beneficiary....................................... 8


    Controls Over Burial Funds Could Be Improved ............................................... 8


    Payments to Individuals Exceeded Funds Available......................................... 9


    Excessive Rep Payee Fees Were Charged ...................................................... 9


    RPS Contained Inaccurate Information............................................................. 9


CONCLUSIONS AND RECOMMENDATIONS .................................................... 11


OTHER MATTERS............................................................................................... 13


APPENDICES


Appendix A – Summary of Monetary Results


Appendix B – Sampling Methodology and Results


Appendix C – Agency Comments


Appendix D – OIG Contacts and Staff Acknowledgments





Financial-Related Audit of Outreach, Inc. – A Fee-for-Service Rep Payee for SSA (A-09-00-10068)
                                                                         Acronyms

FDIC                  Federal Deposit Insurance Corporation


OASDI                 Old-Age, Survivors and Disability Insurance


OIG                   Office of the Inspector General


POMS                  Program Operations Manual System


Rep Payee             Representative Payee


RPR                   Representative Payee Report


RPS                   Representative Payee System


SSA                   Social Security Administration


SSI                   Supplemental Security Income





Financial-Related Audit of Outreach, Inc. – A Fee-for-Service Rep Payee for SSA (A-09-00-10068)
                                                                            Introduction

OBJECTIVE

The objectives of the audit were to determine whether Outreach, Inc., (Outreach)
(1) had effective safeguards over the receipt and disbursement of Social Security
benefits and (2) ensured Social Security benefits were used and accounted for in
accordance with the Social Security Administration’s (SSA) policies and procedures.

BACKGROUND

Some individuals cannot manage or direct the management of their finances because
of their age or mental and/or physical impairments. Congress granted SSA the
authority to appoint representative payees (Rep Payee) to receive and manage benefit
payments on behalf of these individuals. A Rep Payee may be an individual or an
organization. SSA selects Rep Payees for Old-Age, Survivors and Disability Insurance
(OASDI) beneficiaries or Supplemental Security Income (SSI) recipients when
representative payments would serve the individual’s interest.

Rep Payees are responsible for using benefits in the individual’s best interests. Their
duties include:

    •   using benefits to meet the individual’s current and foreseeable needs;

    •	 conserving and investing benefits not needed to meet the individual's current
       needs;

    •   maintaining accounting records of how the benefits are received and used;

    •	 reporting events to SSA that may affect the individual's entitlement or benefit
       payment amount;

    •	 reporting any changes in circumstances that would affect their performance as a
       Rep Payee; and

    •	 providing SSA with an annual Representative Payee Report (RPR), accounting
       for how benefits were spent and invested.

Under the SSI program, a recipient is limited to $2,000 in resources to remain eligible
for benefits. If this resource limit is exceeded, benefit payments to that recipient are
suspended. Such benefits will resume if the recipient’s resources later fall below the
limit. Since the Rep Payee is responsible for notifying SSA of any event that affects the
recipient’s entitlement to benefits, the Rep Payee must notify SSA if a recipient’s
resources exceed the limit in any given month.


Financial-Related Audit of Outreach, Inc. – A Fee-for-Service Rep Payee for SSA (A-09-00-10068)   1
Beneficiaries’ funds not needed for immediate or reasonably foreseeable current
maintenance needs must be conserved or invested. Preferred investments for excess
funds are U.S. Savings Bonds. Funds not needed for current maintenance may be
deposited in an interest or dividend-bearing account in a bank, trust company, credit
union, or Savings and Loan Association that is insured under either Federal or State
law. Any interest earned on this account belongs to the individual, not the Rep Payee.
SSA recommends that Rep Payees hold beneficiaries’ conserved funds in excess of
$150 in an interest-yielding account or investment.1

The Social Security Act permits some organizational Rep Payees to collect a fee for the
services they perform.2 These organizations are called “fee-for-service” Rep Payees.3
The fee is compensation for providing Rep Payee services. Effective December 1998,
the fee was the lesser of 10 percent of the monthly benefits or $27 and, beginning
December 1999, the fee was the lesser of 10 percent of the monthly benefits or $28.

About 6.5 million individuals have Rep Payees—approximately 4.2 million are OASDI
beneficiaries, 1.7 million are SSI recipients, and 500,000 are concurrently entitled under
the OASDI and SSI programs.4 The chart below reflects the types of Rep Payees and
the number of individuals they serve.

                                                               Number of                 Number of
                Type of Rep Payee                              Rep Payees                Individuals
    Individual Payees: Parents, Spouses,
    Adult Children, Relatives, and Others                        4,155,000               5,750,000
    Organizational Payees: State Institutions,
    Local Governments, and Others                                    44,150                690,000

    Organizational Payees: Fee-for-Service                               850                 60,000

                          Total                                  4,200,000               6,500,000

Outreach is a nonprofit, organizational Rep Payee located in San Jose, California.
Outreach was incorporated in 1979 and provides transportation, financial, and social
services to elderly, disabled, and low-income individuals and families in Santa Clara

1
    SSA’s Program Operations Manual System (POMS), section GN 00603.001 and GN 00603.010.
2
  See sections 205(j)(4) and 1631(a)(2)(D) of the Social Security Act, 42 U.S.C. § 405(j)(4) and 42 U.S.C.
§ 1382(a)(2)(D).
3
  To collect a fee, an organization must be a nongovernmental agency that is community-based, a
non-profit social service agency, bonded or licensed, and serving at least five beneficiaries or recipients.
The organization cannot generally be a creditor of the beneficiary or recipient. See SSA’s POMS, section
GN 00506.100.
4
    These amounts do not add due to rounding.


Financial-Related Audit of Outreach, Inc. – A Fee-for-Service Rep Payee for SSA (A-09-00-10068)          2
County, California. Since 1990, Outreach has operated as a fee-for-service Rep Payee
to individuals who receive payments under the OASDI and SSI programs. From
September 1, 1999 through August 31, 2000, Outreach received about $3.5 million in
Social Security benefits. A breakdown of these payments is depicted in the following
chart.

     Type of             Number of                 Benefits Received                      Total SSA
     Payment             Individuals             OASDI            SSI                      Benefits

  SSI Only                    211                          $0         $1,388,300           $1,388,300

  OASDI Only                  165               $1,186,379                       $0        $1,186,379
  Both SSI and
  OASDI                       119                  $623,463             $314,477              $937,940

        Total                 495               $1,809,842            $1,702,777           $3,512,619


SCOPE AND METHODOLOGY
Our audit covered the period September 1, 1999 to August 31, 2000. During this
period, Outreach served as Rep Payee for 495 individuals. From this population, we
selected a random sample of 50 individuals for substantive testing. However, where
applicable, we conducted additional field work to fully develop our findings and
recommendations (see Appendix B).

To accomplish our objectives, we:

    •	 Reviewed the applicable sections of the Social Security Act and SSA’s POMS
       related to Rep Payees.

    •	 Conducted interviews with employees from Outreach in San Jose, California.
       Also, conducted interviews with employees from the SSA regional office in
       Richmond, California, and SSA district office in San Jose, California.

    •	 Conducted interviews with a sample of individuals for whom Outreach served as
       Rep Payee to determine whether their basic needs were met.

    •   Reviewed prior audit reports of Outreach by its Certified Public Accounting firm.

    •	 Obtained from SSA’s Representative Payee System (RPS) three listings
       of individuals who were currently or formerly in Outreach’s care from
       September 1, 1999 through August 31, 2000.




Financial-Related Audit of Outreach, Inc. – A Fee-for-Service Rep Payee for SSA (A-09-00-10068)       3
    •	 Obtained from Outreach a listing of individuals who were in its care and received
       Social Security benefits from September 1, 1999 through August 31, 2000.

    •	 Compared and reconciled the listings from RPS and Outreach to identify the
       population of individuals who were in Outreach’s care from September 1, 1999
       through August 31, 2000.

    •	 Reviewed and tested internal controls over the receipt and disbursement of
       Social Security benefits at Outreach.

    •	 Reviewed a sample of RPRs to determine whether Outreach properly reported to
       SSA how benefits were spent and invested.

    •   For a random sample of 50 individuals, we performed the following tests.

        -	 Compared and reconciled the benefit amounts paid according to SSA’s
           payment records to the benefit amounts paid according to the accounting
           records of Outreach.

        -	 Reviewed the accounting records of Outreach to determine whether benefits
           were properly spent or conserved on the behalf of the individuals in its care.

        -	 Traced a sample of expenses to source documents and examined the
           supporting documentation for reasonableness and authenticity.

We performed audit work in Richmond and San Jose, California, from September 2000
to March 2001. The entity audited was the Office of Program Benefits within the Office
of the Deputy Commissioner for Disability and Income Security Programs. We
conducted our audit in accordance with generally accepted government auditing
standards.




Financial-Related Audit of Outreach, Inc. – A Fee-for-Service Rep Payee for SSA (A-09-00-10068)   4
                                                           Results of Review

Our audit disclosed that Outreach generally (1) had effective safeguards over the
receipt and disbursement of Social Security benefits and (2) ensured Social Security
benefits were used and accounted for in accordance with SSA’s policies and
procedures. However, we could not determine whether the Rep Payee properly
reported to SSA how benefits were used because SSA could not locate most of the
RPRs we requested (see Other Matters section of this report). In addition, we identified
a number of areas where Outreach could improve its performance as a Rep Payee (see
Appendix A for a summary of monetary results). Specifically, we found the following.

•	 Outreach held $632,894 in conserved funds that were uninsured, and $665,062 was
   in a noninterest-bearing account.

•	 Outreach did not return $53,052 in conserved funds timely for 28 individuals who
   were no longer in its care.

•	 Outreach did not report to SSA that 24 recipients had conserved funds in excess of
   the SSI resource limit of $2,000, resulting in overpayments totaling $34,968.

•	 Outreach received incorrect payments totaling $10,320 after the deaths of
   three individuals.

•	 Outreach commingled burial and nonburial funds for 38 SSI recipients and did not
   report the use of burial funds for nonburial purposes for 15 recipients. This resulted
   in three recipients being subject to penalties totaling $3,500.

•	 Outreach issued payments in excess of conserved funds for 87 individuals, resulting
   in a deficit of $1,423 as of August 31, 2000.

•	 Outreach charged excessive Rep Payee fees totaling $790 for 8 of the
   50 individuals in our sample.

•	 SSA recorded incorrect information in RPS for Outreach, including the number of
   entries, the type of Rep Payee, and the number of individuals in its care.

Funds Were Held in Underinsured, Noninterest-Bearing Accounts

Outreach held conserved funds in underinsured, noninterest-bearing accounts. As of
August 31, 2000, Outreach had $632,894 in conserved funds that were not insured. In
addition, Outreach did not earn interest on $665,062 in conserved funds in a checking
account.




Financial-Related Audit of Outreach, Inc. – A Fee-for-Service Rep Payee for SSA (A-09-00-10068)   5
The Federal Deposit Insurance Corporation (FDIC) insures bank deposits up to
$100,000 per account. FDIC provides additional coverage of $100,000 per individual in
collective bank accounts if the account is properly titled to show the fiduciary
relationship between the account holder and its clients. FDIC recognizes a claim for
insurance coverage based on a fiduciary relationship only if the relationship is expressly
disclosed, by way of specific references, in the deposit account records of the insured
depository institution.5

The checking account was not properly titled to show the fiduciary relationship between
Outreach and its beneficiaries. The account was set up as a corporate account rather
than a trust or custodian account. As a result, the checking account was only insured
for a total of $100,000. This account had conserved funds of $665,062, or $565,062 in
excess of FDIC coverage. The savings account was properly titled to show the
fiduciary relationship between Outreach and its beneficiaries. As a result, the savings
account was insured for $100,000 per individual. However, one individual had
conserved funds of $167,832, or $67,832 in excess of FDIC coverage. The total
uninsured funds were $632,894 ($565,062 plus $67,832). In the event of bank failure,
$632,894 in beneficiary funds is subject to loss.

In addition, SSA policy states that title II benefits that are not needed for the
beneficiary’s immediate or reasonably foreseeable needs must be conserved or
invested with minimum risk. Since title XVI benefits are intended to meet recipients’
daily living expenses, the Rep Payee is not expected to accumulate substantial
savings.6 Funds not needed for current maintenance may be deposited in an
interest-bearing or dividend-bearing account in a bank, trust company, credit union, or
savings and loan association which is insured under either Federal or State law. For
each beneficiary, SSA recommends that Rep Payees place title II conserved funds in
excess of $150 in interest-yielding investments.7

As of August 31, 2000, Outreach held $665,062 in a noninterest-bearing checking
account and $1,434,027 in an interest-bearing savings account.8 Outreach used the
savings account to earn interest for 52 individuals with over $5,000 in conserved funds.
However, 461 individuals with conserved funds in the checking account did not earn
interest.




5
    12 C.F.R. § 330.5(a)(1) and (b)(1).
6
    POMS section GN 00603.001.A.1 and A.2.
7
    POMS section GN 00603.001.B.1 and GN 00603.010.A.1.
8
  The outstanding balances in the checking and savings accounts were held on behalf of 461 and
52 individuals, respectively. About 25 of these individuals received benefits only from non-SSA sources,
such as the Veterans Administration.


Financial-Related Audit of Outreach, Inc. – A Fee-for-Service Rep Payee for SSA (A-09-00-10068)       6
Conserved Funds Were Not Returned Timely
Outreach did not return conserved funds timely for individuals who were no longer in its
care. As of August 31, 2000, Outreach held $53,052 for 28 individuals, including 7 who
had died and 21 who were assigned to new Rep Payees or were no longer eligible for
benefits. Outreach held the conserved funds for an average of 10.5 months after the
individuals were no longer in its care.

SSA policy requires that a Rep Payee who has a beneficiary’s conserved or invested
funds must return the funds to SSA or, as directed, to a successor payee or beneficiary
in direct payment.9

In one case, the individual left Outreach’s care in June 1997. Outreach received the
individual’s Social Security benefits until January 1998 and held $16,379 in conserved
funds as of August 31, 2000. In another case, the individual was incarcerated and
therefore not eligible for benefits. Although SSA notified Outreach and terminated
benefits in November 1998, Outreach held $11,961 in conserved funds as of
August 31, 2000. For these individuals, Outreach held conserved funds for 31 and
20 months, respectively. As a result of our audit, Outreach returned $28,340 to SSA in
December 2000.

Excess Resources Resulted in SSI Overpayments

Outreach did not report to SSA that 24 recipients had conserved funds in excess of the
$2,000 SSI resource limit. Generally, SSI recipients are not eligible for benefits during
months in which their resources exceed $2,000. As a result, these individuals received
overpayments totaling $34,968 from September 1, 1999 through August 31, 2000.

SSA policy states that, effective January 1, 1989, individuals with countable resources
that exceed $2,000 are not eligible for SSI payments. Individuals must use these
excess resources to meet their needs before they may receive additional SSI
payments. SSA makes eligibility determinations as of the first moment of each
calendar month that are applicable to the entire month.10

During our audit, we found that one individual had conserved funds in excess of the SSI
resource limit from September 1999 to August 2000. During this period, the conserved
fund balances ranged from $4,642 to $5,682. As a result, the individual was ineligible
for SSI payments. Outreach did not report the excess resources to SSA and, therefore,
received $8,240 of SSI payments for which the individual was not eligible. Outreach
agreed with our finding and has initiated corrective action.




9
     POMS section GN 00603.055.
10
     POMS section SI 01110.001 and SI 01110.003.


Financial-Related Audit of Outreach, Inc. – A Fee-for-Service Rep Payee for SSA (A-09-00-10068)   7
Payments Were Received After Death of Beneficiary
Outreach received incorrect payments for 7 to 9 months after the deaths of three
individuals. Outreach stated that it reported two of the three deaths to SSA, but it could
not verify it had, in fact, reported these deaths. Nevertheless, Outreach received
$10,320 even though it was providing no services.

SSA policy states that Rep Payees are responsible for reporting events that may affect
the beneficiary’s entitlement or amount of payment, including the beneficiary’s death.
In addition, Rep Payees are responsible for returning any benefits to which the
beneficiary is not entitled.11

Although Outreach stated that it had reported two of the three deaths, this does not
alleviate the responsibility of the Rep Payee to (1) follow up with SSA when benefit
payments are subsequently received on behalf of deceased individuals and (2) return
benefit payments for individuals no longer in its care.

Controls Over Burial Funds Could Be Improved
Outreach commingled the burial and nonburial funds for 38 SSI recipients. SSA’s
procedures require that these funds be kept in separate accounts, in order for a
maximum of $1,500 of burial funds to be excluded from resources.12 Outreach used
burial funds to pay nonburial expenses for 15 recipients when their conserved funds
were exhausted. Although burial funds may be used for other purposes, the individual
may be subject to a penalty for the amount withdrawn.13 Outreach did not notify SSA of
such events to determine whether penalties should be assessed. As a result, three of
these individuals were subject to penalties totaling $3,500.

SSA policy requires that burial funds be clearly designated for the individual’s or
spouse’s burial, cremation, or other burial-related expenses. Burial funds are
excludable from the $2,000 SSI resource limit. They may be commingled with
burial-related assets, but they must be separated from nonburial-related assets to be
excluded from resources. The amount of burial funds used for nonburial purposes
must be withheld from future payments unless, at the beginning of the month, the
individual would not have exceeded the SSI resource limit even if the burial funds were
          14
included.

For example, one individual had an account balance of $3,449 at the beginning of
August 2000, consisting of burial funds of $1,500 and nonburial funds of $1,949.

11
     POMS section GN 00502.113.B.
12
     POMS section SI 01130.410.C.3.a.
13
     POMS section SI 01130.410.C.5.
14
     POMS section SI 01130.410.B.1, C.3, and C.5.


Financial-Related Audit of Outreach, Inc. – A Fee-for-Service Rep Payee for SSA (A-09-00-10068)   8
Outreach withdrew all of her burial funds for nonburial expenses during the month.
Since the account balance exceeded the SSI resource limit, the individual was subject
to a $1,500 penalty. Two additional individuals were subject to penalties of $1,500 and
$500, respectively.

Payments to Individuals Exceeded Funds Available

Outreach issued payments in excess of conserved funds for 87 individuals, resulting
in negative balances. These negative balances occurred each month from
September 1999 to August 2000. The deficits ranged from a total of $148 for
3 individuals in December 1999 to a total of $6,650 for 19 individuals in April 2000.
Because Outreach commingled the funds of all individuals in its care, the benefits of
some individuals were used to pay the expenses of others. As of August 31, 2000,
Outreach had a total deficit of $1,423 in the account balances of 10 individuals in its
care.

SSA policy states that a Rep Payee is directed to apply benefits certified on behalf of a
beneficiary only for the use and benefit of that beneficiary. Although the Rep Payee
may establish collective checking and savings accounts to hold funds belonging to
more than one beneficiary, Rep Payees must maintain clear and current records
showing the amount of each individual’s share in the account.15

Excessive Rep Payee Fees Were Charged
For 8 of the 50 individuals in our random sample, Outreach charged excessive Rep
Payee fees totaling $790. This occurred because Outreach (1) charged fees during
months in which no benefits were received, (2) used current benefits to retroactively
charge fees for prior months, (3) collected fees when funds were not available for
payment, and (4) did not charge the lesser of $25 per month or 10 percent of benefits
received.

SSA policy states that organizational Rep Payees may collect a fee from an individual’s
total Social Security benefits. The fee is generally the lesser of 10 percent of the
combined OASDI and SSI monthly payment or $25. This amount was increased to
$27 in December 1998 and $28 in December 1999. However, current benefits may not
be used to collect fees for prior months. In addition, Rep Payees are prohibited from
charging a fee if no payment is received in the month.16




15
     POMS section GN 00602.001 and GN 00603.020.
16
     POMS section GN 00506.210 and GN 00506.230.


Financial-Related Audit of Outreach, Inc. – A Fee-for-Service Rep Payee for SSA (A-09-00-10068)   9
RPS Contained Inaccurate Information
SSA recorded incorrect information in RPS for Outreach. Specifically, the district office
(1) created 3 different entries for Outreach within RPS, (2) misclassified Outreach as a
nonfee-for-service Rep Payee, and (3) failed to enter 30 individuals into RPS when
Outreach was selected as their Rep Payee. Because of the misclassification error,
Outreach did not receive proper notification from SSA of subsequent increases in Rep
Payee fees.

RPS contains information about current and prior Rep Payees for individuals receiving
payments under the OASDI and SSI programs. RPS was mandated by the Omnibus
Budget Reconciliation Act of 1990, which required the development of a system to
house data about all Rep Payees and the beneficiaries for whom they serve. RPS is an
on-line system for entering and retrieving information about Rep Payees and those
applying to be Rep Payees. Such information includes a fee-for-service indicator,
which is required to identify Rep Payees for annual notices of fee increases.17

From September 1999 to August 2000, Outreach generally charged a Rep Payee fee of
$25 per month. Although this amount increased to $27 in December 1998 and $28 in
December 1999, Outreach was unaware of these changes because of its erroneous
classification in RPS, which precluded it from receiving the annual notices of fee
increases. In October 2000, SSA modified RPS to reclassify Outreach as a
fee-for-service Rep Payee.




17
     POMS section GN 00502.120 and EM-99119 dated November 1, 1999.


Financial-Related Audit of Outreach, Inc. – A Fee-for-Service Rep Payee for SSA (A-09-00-10068)   10
                                                          Conclusions and
                                                         Recommendations
Generally, we found that Outreach met its responsibilities as Rep Payee for individuals
receiving OASDI and SSI payments. Nevertheless, Outreach needs to strengthen its
controls and procedures to reduce the potential for erroneous payments and loss of
beneficiary funds. We recommend that SSA:

1. 	 Direct Outreach to amend the title of its checking account to obtain Federal
     Deposit Insurance Corporation coverage of $100,000 for each individual.

2. 	 Direct Outreach to take action to ensure (1) any individuals with conserved funds in
     excess of $100,000 are fully protected against loss and (2) individuals earn interest
     on their conserved funds in accordance with SSA policy.

3. 	 Direct Outreach to return conserved funds to the affected beneficiary, SSA or the
     new Rep Payee for individuals no longer in its care.

4. 	 Direct Outreach to establish controls to determine when individuals no longer in its
     care have conserved funds and ensure these funds are returned in a timely
     manner.

5. 	 Direct Outreach to return SSI payments for recipients who were ineligible because
     of excess resources.

6. 	 Direct Outreach to develop procedures for identifying SSI recipients with excess
     resources and reporting them to SSA.

7. 	 Direct Outreach to return incorrect payments received on behalf of deceased
     individuals.

8. 	 Direct Outreach to develop procedures for identifying erroneous payments to
     deceased individuals and returning these funds in a timely manner.

9. 	 Direct Outreach to obtain a separate bank account for SSI recipients with burial
     funds and report withdrawals from these funds to the Agency. Also, assess
     penalties for withdrawal of burial funds used for other purposes.

10. 	 Direct Outreach to reimburse individuals with negative balances for conserved
      funds and establish controls to ensure payments to individuals do not exceed their
      conserved fund balances.




Financial-Related Audit of Outreach, Inc. – A Fee-for-Service Rep Payee for SSA (A-09-00-10068)   11
11. 	 Direct Outreach to reimburse individuals for excessive Rep Payee fees and provide
      guidance to Outreach on the proper collection of fees for payee services.

12. 	 Update RPS to consolidate the multiple entries for Outreach and include all
      individuals for whom Outreach was selected as Rep Payee.

AGENCY COMMENTS
In its response, SSA agreed with all of our recommendations. (See Appendix C for
SSA’s comments.)




Financial-Related Audit of Outreach, Inc. – A Fee-for-Service Rep Payee for SSA (A-09-00-10068)   12
                                                                       Other Matters

Bond May Not Adequately Protect Against Loss of Funds

SSA requires that nongovernmental agencies be bonded to obtain payment for services
as a Rep Payee. From September 1, 1999 through August 31, 2000, Outreach was
bonded for $10,000, but maintained $2,099,089 in conserved funds on behalf of the
individuals in its care. In September 2000, Outreach increased the amount of its bond
to $50,000.

SSA policy states that, for the purpose of payment for services, the bond must be an
insurance contract that guarantees payment to a third party on behalf of the Rep Payee
in the event of unforeseen financial loss caused by an employee. The contract
furnishes the income used to settle a successful legal claim filed by a client against the
Rep Payee.18

SSA’s procedures do not specify how much coverage is necessary to protect the
conserved funds held by Rep Payees on behalf of the individuals in their care. Unless
a minimum coverage is established, SSA may not have reasonable assurance that
beneficiary funds are adequately protected against loss.

Representative Payee Reports Were Unaccounted For

As part of our audit, we requested that SSA provide the most recently completed
RPRs for 30 individuals who were in Outreach’s care from September 1, 1999 to
August 31, 2000. SSA subsequently provided RPRs for 7 of the 30 individuals.
However, SSA was unable to provide RPRs for the remaining 23 individuals. Outreach
did not retain copies of the RPRs submitted to SSA.

Rep Payees are required to complete RPRs to account for the benefits received and
used for all individuals in their care. Such information is required to be reported to SSA
on an annual basis. SSA is also required to review the RPRs and retain these reports
for 2 years after the last month of the reporting period.19

Because SSA did not provide all the RPRs requested, we could not independently
verify that Outreach met its reporting responsibilities. For the 23 RPRs not provided by
SSA, we were unable to determine whether Outreach failed to submit the reports or
submitted the RPRs and SSA could not locate them.




18
     POMS section GN 00506.100.
19
     POMS section GN 00605.001.B and GN 00605.040.


Financial-Related Audit of Outreach, Inc. – A Fee-for-Service Rep Payee for SSA (A-09-00-10068)   13
                                                          Appendices





Financial-Related Audit of Outreach, Inc. – A Fee-for-Service Rep Payee for SSA (A-09-00-10068)
                                                                            Appendix A

Summary of Monetary Results

                           Finding                                               Amount
 Funds Were Held in Underinsured, Noninterest-Bearing
 Accounts                                                                            $632,894

 Conserved Funds Were Not Returned Timely                                             $53,052
 Excess Resources Resulted in Supplemental Security Income
 Overpayments                                                                         $34,968

 Payments Were Received After Death of Beneficiary                                    $10,320

 Controls Over Burial Funds Could Be Improved                                           $3,500

 Payments to Individuals Exceeded Funds Available                                       $1,423

 Excessive Rep Payee Fees Were Charged                                                    $790

                                   Total                                             $736,947




Financial-Related Audit of Outreach, Inc. – A Fee-for-Service Rep Payee for SSA (A-09-00-10068)
                                                                                Appendix B

Sampling Methodology and Results
Our audit covered the period from September 1, 1999 to August 31, 2000. During this
period, Outreach, Inc. (Outreach) received $3,512,619 in Social Security benefits,
including $1,809,842 of Old-Age, Survivors and Disability Insurance (OASDI) benefits
and $1,702,777 of Supplemental Security Income (SSI) payments. Outreach served as
representative payee (Rep Payee) for a total of 495 individuals. From this population,
we selected a random sample of 50 individuals for substantive testing. However, where
applicable, we conducted additional field work to fully develop our findings and
recommendations. Our sampling methodology and results are described below.

Funds Were Held in Underinsured, Noninterest-Bearing Accounts
We reviewed the checking and savings accounts held by Outreach on behalf of the
individuals in its care. As of August 31, 2000, Outreach held conserved funds totaling
$2,099,089 for 461 individuals. We determined whether the conserved funds were fully
protected against loss and earned interest for the Social Security Administration’s
(SSA) beneficiaries. Our review disclosed that Outreach held conserved funds in
underinsured, noninterest-bearing accounts, resulting in $632,894 that was not insured
and $665,062 for which interest income was not earned.

Conserved Funds Were Not Returned Timely
We reviewed 28 individuals who were no longer in Outreach’s care as of

August 31, 2000. These cases were identified through our review of accounting

data provided by Outreach, reconciliation of beneficiary listings obtained from

SSA’s Representative Payee System (RPS) and Outreach, and our random sample

of 50 individuals who were in Outreach’s care from September 1, 1999 through

August 31, 2000. We reviewed the timeliness of the actions taken by Outreach to

return the conserved funds to SSA or the new Rep Payee. Our review disclosed that

Outreach did not return $53,052 of conserved funds timely for 28 individuals who were

no longer in its care.


Excess Resources Resulted in SSI Overpayments

Of the 495 individuals in our population, a total of 330 individuals received payments

under the SSI program. We determined that 65 of the 330 recipients had conserved

funds in excess of $2,000 during the period of September 1, 1999 through

August 31, 2000. We reviewed the propriety of the SSI payments to all 65 of these

recipients. Our review disclosed that Outreach did not report to SSA that 24 recipients

had conserved funds in excess of the $2,000 SSI resource limit, resulting in

overpayments totaling $34,968.



Financial-Related Audit of Outreach, Inc. – A Fee-for-Service Rep Payee for SSA (A-09-00-10068)   B-1
Payments Were Received After Death of Beneficiary
We reviewed three individuals who were in the care of Outreach but subsequently
died in November or December 1999. These cases were identified through our
reconciliation of beneficiary listings obtained from RPS and Outreach. We reviewed the
timeliness of the actions taken by Outreach to return the incorrect payments received
on behalf of deceased individuals. Our review disclosed that Outreach received
incorrect payments totaling $10,320 after the death of three individuals.

Controls Over Burial Funds Could Be Improved

Of the 495 individuals in our population, a total of 330 individuals received payments
under the SSI program. We determined that 38 of the 330 recipients had burial funds
from September 1, 1999 through August 31, 2000. For all 38 of these recipients, we
determined whether Outreach had (1) maintained separate accounts for burial and
nonburial funds and (2) reported withdrawals from burial funds used for other purposes
to SSA, enabling the Agency to evaluate whether penalties should be assessed. Our
review disclosed that Outreach commingled burial and nonburial funds for 38 SSI
recipients and did not report the use of burial funds for nonburial purposes for
15 recipients, resulting in penalties totaling $3,500 for 3 recipients.

Payments to Individuals Exceeded Funds Available
We reviewed all individuals who were in Outreach’s care from September 1, 1999
through August 31, 2000. For these individuals, we determined whether Outreach
monitored their conserved funds to prevent expenditures that would result in negative
balances. Our review disclosed that Outreach issued payments in excess of conserved
funds for 87 individuals, resulting in a deficit of $1,423 as of August 31, 2000.

Excessive Rep Payee Fees Were Charged
We selected a random sample of 50 individuals who were in Outreach’s care
September 1, 1999 through August 31, 2000. We reviewed these cases to determine
the propriety of the Rep Payee fees charged by Outreach. Our review disclosed
that Outreach charged excessive fees totaling $790 for 8 of the 50 individuals in our
sample.

RPS Contained Inaccurate Information

We obtained from RPS three listings of individuals who were currently or formerly in
Outreach’s care from September 1, 1999 through August 31, 2000. In addition, we
obtained from Outreach a listing of individuals who were in its care and received Social
Security benefits from September 1, 1999 through August 31, 2000. We reconciled
these listings to identify our population of 495 individuals and determined whether the
information in RPS was accurate. Our review disclosed that SSA recorded incorrect



Financial-Related Audit of Outreach, Inc. – A Fee-for-Service Rep Payee for SSA (A-09-00-10068)   B-2
information in RPS for Outreach, including the number of entries, the type of Rep
Payee, and number of individuals in its care.




Financial-Related Audit of Outreach, Inc. – A Fee-for-Service Rep Payee for SSA (A-09-00-10068)   B-3

                                                                            Appendix C


Agency Comments





Financial-Related Audit of Outreach, Inc. – A Fee-for-Service Rep Payee for SSA (A-09-00-10068)
                   RESPONSE TO THE FINANCIAL-RELATED AUDIT

                               OF OUTREACH, INC.

                   A FEE-FOR-SERVICE REPRESENTATIVE PAYEE

                                  FOR THE SSA

                                  (A-09-00-10068)


                               Conclusions and Recommendations



1.	 Direct Outreach to amend the title of its checking account to obtain Federal Deposit
    Insurance Corporation coverage of $100,000 for each individual.

   Outreach, Inc. has made this change, guaranteeing that each beneficiary in the account has
   individual $100,000 coverage.

2.	 Direct Outreach to take action to ensure (1) any individuals with conserved funds in
    excess of $100,000 are fully protected against loss and (2) individuals earn interest on
    their conserved funds in accordance with SSA policy.

   Outreach, Inc. has taken the necessary steps to create separate interest-bearing bank accounts
   for those beneficiaries who have over $100,000 in conserved funds. For those beneficiaries
   who maintain conserved fund balances below $100,000, their accounts are now structured so
   they are earning interest and the interest is credited to the beneficiary.

3.	 Direct Outreach to return conserved funds to the affected beneficiary, SSA or the new
    Rep Payee for individuals no longer in its care.

   As a result of this audit, Outreach has returned $28,340.00 in conserved funds to SSA. They
   have agreed to review records of all beneficiaries for whom they are no longer payee, and
   will continue to make refunds to SSA on a case-by-case basis. The local SSA field office
   will work with them to be sure that all funds that Outreach may be holding for former
   beneficiaries are returned.

4.	 Direct Outreach to establish controls to determine when individuals no longer in its
    care have conserved funds and ensure these funds are returned in a timely manner.

   The lead accountant at Outreach has made changes to their automated control system to
   ensure that they are alerted to the receipt of SSA funds once a beneficiary has left their care.
   They understand that SSA money received once a beneficiary has left their care must be
   returned to SSA as soon as possible.




Financial-Related Audit of Outreach, Inc. – A Fee-for-Service Rep Payee for SSA (A-09-00-10068)   C-2
5.	 Direct Outreach to return SSI payments for recipients who were ineligible because of
    excess resources.

6.	 Direct Outreach to develop procedures for identifying SSI recipients with excess
    resources and reporting them to SSA.

   Outreach has also established an automated monitoring system to alert them when a Title 16
   beneficiary exceeds the resource limit. Based on this alert, they will notify the recipient and
   SSA of the excess resource situation and make arrangements to return any improperly SSI
   payments that are due to SSA.

7.	 Direct Outreach to return incorrect payments received on behalf of deceased
    individuals.

   Outreach now understands that reporting the death of one of their clients may not always
   result in the timely termination of benefits. They are now aware that they must refund any
   checks received for a deceased beneficiary, even if they have already reported the death to
   SSA.

8.	 Direct outreach to develop procedures for identifying erroneous payments to deceased
    individuals and returning these funds in a timely manner.

   With the changes made to the Outreach computerized accounting system, it is now easier to
   identify situations where benefits payments continue to be received after a beneficiary has
   died. At the time of death, Outreach updates their record keeping system, notifies SSA that
   the beneficiary has died, returns any conserved funds for that beneficiary and will continue to
   return any future benefits that are received.

9.	 Direct Outreach to obtain a separate bank account for SSI recipients with burial funds
    and report withdrawals from these funds to the Agency. Also, assess penalties for
    withdrawal of burial funds used for other purposes.

   Outreach did not know that withdrawals from an SSI recipient’s burial fund could result in a
   monetary penalty for the individual. They now understand that all funds set aside for burial
   purposes must be maintained in a separate bank account and should not be used for other
   purposes without notifying SSA. SSA has suggested that if SSI recipients routinely need to
   supplement their monthly income with conserved funds, the funds should be moved from a
   burial account to regular savings account. Outreach has agreed to pay any penalties assessed
   in these cases from their own business account.




Financial-Related Audit of Outreach, Inc. – A Fee-for-Service Rep Payee for SSA (A-09-00-10068)   C-3
10. Direct Outreach to reimburse individuals with negative balances for conserved funds
    and establish controls to ensure payments to individuals do not exceed their conserved
    fund balances.

   Outreach has started and is currently in the process of reviewing records from 1999 and 2000
   to determine which individuals should be reimbursed with interest for monies that were used
   from their accounts to pay for the needs of other individuals. It was clearly explained to
   Outreach that it is not acceptable to borrow from one beneficiary for another beneficiary for
   any reason. We will specifically focus on this issue on our next visit 3-month visit.

11. Direct Outreach to reimburse individuals for excessive Rep Payee fees and provide
    guidance to Outreach on the proper collection of fees for payee services.

   Outreach has been told to reimburse all individuals for fees incorrectly charged to their
   account. They will provide documentation to SSA for each specific case. The SSA field
   office has already met with Outreach and explained to them when fees can and cannot be
   charged.

12. Update RPS to consolidate the multiple entries for Outreach and include all individuals
    for whom Outreach was selected as Rep Payee.

   All three listings for Outreach on RPS have been consolidated and the field office is in the
   process of adding to RPS any individuals that are missing for whom Outreach is the payee.




Financial-Related Audit of Outreach, Inc. – A Fee-for-Service Rep Payee for SSA (A-09-00-10068)   C-4
                                                                            Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   William Fernandez, Director, Program Benefits Audit Division, (510) 970-1739

   Jack H. Trudel, Deputy Director, (510) 970-1733

Acknowledgments

In addition to those named above:

   James Sippel, Senior Auditor

   Timothy E. Meinholz, Auditor

   Glenn E. Lee, Auditor

   Kimberly Beauchamp, Writer-Editor, Policy, Planning and Technical Services


For additional copies of this report, please contact the Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-09-00-10068.




Financial-Related Audit of Outreach, Inc. – A Fee-for-Service Rep Payee for SSA (A-09-00-10068)
                                        DISTRIBUTION                SCHEDULE

                                                                                                        No. of
                                                                                                        CaRies

Commissioner        of Social Security                                                                         1
Management        Analysis      and Audit Program          Support    Staff, OFAM                         10

Inspector     General                                                                                          1
Assistant     Inspector     General     for Investigations                                                     1
Assistant     Inspector     General     for Executive      Operations                                          3
Assistant     Inspector     General     for Audit                                                              1
                                                       I
Deputy Assistant          Inspector     General     for Audit                                                  1
  Director,    Systems       Audit Division

  Director,    Financial     Management           and Performance       Monitoring     Audit Division          1
  Director,    Operational      Audit Division                                                                 1

  Director,    Disability    Program      Audit Division                                                       1

  Djrector,    Program       Benefits    Audit Division                                                        1

  Director,    General      Management        Audit Division

Issue Area Team Leaders                                                                                   25


Income Maintenance            Branch,     Office of Management           and Budget                            1


Chairman,      Committee       on Ways and Means                                                               1
Ranking     Minority    Member,       Committee       on Ways and Means                                        1
Chief of Staff, Committee             on Ways and Means                                                        1
Chairman,      Subcommittee           on Social Security                                                       2
Ranking     Minority    Member,       Subcommittee         on Social Security                                  1
Majority    Staff Director,     Subcommittee          on Social Security                                       2
Minority    Staff Director,     Subcommittee          on Social Security                                       2
Chairman,      Subcommittee           on Human       Resources                                                 1
Ranking     Minority    Member,       Subcommittee         on Human Resources

Chairman,      Committee       on Budget,      House of Representatives

Ranking     Minority    Member,       Committee       on Budget,      House of Representatives

Chairman,      Committee       on Government           Reform and Oversight

Ranking     Minority    Member,       Committee       on Government        Reform and Oversight

Chairman,      Committee       on Governmental           Affairs

Ranking     Minority    Member,       Committee       on Governmental       Affairs

                                                                                                       Page 2

Chairman,      Committee           on Appropriations,      House of Representatives                       1
Ranking Minority Member, Committee                      on Appropriations,
 House of Representatives                                                                                 1
Chairman, Subcommittee     on Labor, Health and Human Services,                          Education
 and Related Agencies, Committee on Appropriations,
  House of Representatives                                                                                1
Ranking Minority Member, Subcommittee   on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                                                 1
Chairman,      Committee           on Appropriations,      U.S. Senate                                    1
Ranking      Minority     Member,      Committee        on Appropriations,      U.S. Senate               1
Chairman, Subcommittee                on Labor, Health and Human Services, Education
 and Related Agencies,               Committee on Appropriations, U.S. Senate                             1
Ranking Minority Member, Subcommittee   on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                                              1
Chairman,      Committee           on Finance                                                             1
Ranking      Minority     Member,      Committee        on Finance                                        1
Chairman,      Subcommittee           on Social Security       and Family Policy                          1
Ranking      Minority     Member,      Subcommittee         on Social Security     and Family Policy      1
Chairman,      Senate      Special Committee            on Aging                                          1

Ranking      Minority     Member,      Senate   Special Committee            on Aging                     1

Vice Chairman, Subcommittee                  on Government         Management       Information
  and Technology                                                                                          1
President,     National     Council     of Social Security      Management        Associations,
  Incorporated                                                                                            1
Treasurer,     National      Council     of Social Security     Management        Associations,
  Incorporated                                                                                            1
Social Security         Advisory     Board                                                                1
AFGE General        Committee                                                                             9
President,     Federal      Managers       Association                                                    1
Regional     Public Affairs Officer                                                                       1


Total                                                                                                    97
                   Overview of the Office of the Inspector General


                                         Office of Audit
The Office of Audit (OA) conducts comprehensivefinancial and performance audits of the
Social Security Administration's (SSA) programs and makes recommendations to ensurethat
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assesswhether SSA' s financial statementsfairly present
the Agency's financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA' s programs. OA also conducts short-term
managementand program evaluations focused on issuesof concern to SSA, Congress,and the
generalpublic. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supportsthe Office of the Inspector General (OIG) by
providing information resourcemanagement;systemssecurity; and the coordination of budget,
procurement, telecommunications, facilities and equipment, and human resources. In addition,
this office is the focal point for the OIG's strategic planning function and the development and
implementation of performance measuresrequired by the Government Performance and Results
Act. OEO is also responsible for performing internal reviews to ensurethat OIG offices
nationwide hold themselves to the samerigorous standardsthat we expect from the Agency, as
well as conducting employee investigations within OIG. Finally, OEO administers OIG's public
affairs, media, and interagency activities and also communicates OIG's planned and current
activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (01) conducts and coordinates investigative activity related to fraud.
waste, abuse,and mismanagementof SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representativepayees,third
parties, and by SSA employeesin the performance of their duties. Or also conductsjoint
investigations with other Federal, State,and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: l) statutes,regulations, legislation, and policy directives
governing the administration of SSA' s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the DIG. The Counsel's office also administers the civil monetary penalty program.
